        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

Management Controls over the
Development and Implementation of
the Office of Energy Efficiency and
Renewable Energy's Performance
and Accountability for Grants in
Energy System




OAS-RA-10-14                          July 2010

                                 Department of Energy
                                   Washington, DC 20585
                                          July 22, 2010


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit Services
                         Office of Inspector General
SUBJECT:                INFORMATION: Audit Report on "Management Controls over the
                        Development and Implementation of the Office of Energy Efficiency
                        and Renewable Energy's Performance and Accountability for Grants in
                        Energy System"

BACKGROUND

As a result of the American Recovery and Reinvestment Act of 2009 (Recovery Act), the
Department of Energy (Department) received $3.2 billion for grants to states, territories, local
governments, and Indian tribes under the Energy Efficiency and Conservation Block Grant
(Block Grant) Program. To help manage and track block grants, the Department's Office of
Energy Efficiency and Renewable Energy (EERE) plans to spend approximately $9.5 million,
nearly all of which is Recovery Act funding, for development and operation of the web-based
Performance and Accountability for Grants in Energy (PAGE) System. PAGE began limited
operation in September 2009 and was utilized by Block Grant recipients for quarterly Recovery
Act reporting beginning in October 2009. PAGE will also replace the Windows System
Approach to Grants Administration (WinSAGA) legacy system for tracking grant recipients'
performance under the State Energy and Weatherization Assistance Programs, programs that
received a combined $8.1 billion through the Recovery Act.

Our report on Management Controls over the Department's WinSAGA System for Energy Grants
Management Under the Recovery Act (OAS-RA-10-05, March 2010), found that the system
suffered from a number of security and operations management issues. These weaknesses had
the potential to impact PAGE since it was to be developed by the same contractor and managed
in a manner similar to WinSAGA. Because of the importance of the system to managing the
EERE grant programs, we initiated this audit to determine whether PAGE was developed and
implemented in accordance with Department and Federal cyber security and project management
requirements.

RESULTS OF AUDIT

Although PAGE had been partially deployed and was being used by EERE and grant recipients,
it did not satisfy a number of important cyber security requirements. In addition, the
                                                 2


development of the system was not performed in accordance with Federal requirements.
Specifically:
       PAGE was placed into operation even though cyber security planning and testing was not
       completed. As a consequence, the system suffered from weaknesses related to
       inadequate risk assessments and problems with access controls, each of which could
       increase the risk of compromise; and,
       Basic project management practices were not followed during planning, development,
       and implementation of PAGE. In particular, cost and schedule baselines were not created
       to help manage the project and officials had not fully considered alternatives to a custom
       system development, practices which are designed to increase the efficiency of system
       development.
These issues were due, in large part, to the accelerated planning, development and deployment
approach adopted by the Department. Because of a need to quickly deploy the system, officials
elected to proceed without completing all required cyber security planning, assessment, and
security testing. The desire to quickly deploy the system also contributed to the decision to not
complete various Office of Management and Budget required project management activities
prior to moving forward with development. EERE's decisions to not perform these cyber
security and project management tasks placed the PAGE system and the network on which it
resides at increased risk that the confidentiality, integrity, and availability of the Department's
information systems and data could be compromised. In addition, the program may spend more
than necessary for development and implementation activities.
We understand the importance of ensuring the availability of a system for managing EERE's
grant programs and the short timeframe that was available for system development and
implementation. However, there is an equally pressing need to ensure that systems, and the
corporate networks on which they reside, are not exposed to higher than necessary risk of
compromise. While EERE officials took action to address a number of the technical cyber
security weaknesses we identified during our system vulnerability and penetration testing,
additional action is necessary to resolve security problems and prevent future development
issues. For that reason, we made several recommendations which, if fully implemented, should
help improve future system development efforts and enhance the Department's cyber security
posture.
MANAGEMENT REACTION
Management generally concurred with the recommendations in the report and indicated that
corrective actions were underway to address our recommendations. Management's comments
are included in Appendix 3.
Attachment
cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Chief Financial Officer
    Acting Chief Information Officer
REPORT ON MANAGEMENT CONTROLS OVER THE
DEVELOPMENT AND IMPLEMENTATION OF THE OFFICE OF
ENERGY EFFICIENCY AND RENEWABLE ENERGY'S
PERFORMANCE AND ACCOUNTABILITY FOR GRANTS IN
ENERGY SYSTEM

TABLE OF
CONTENTS

Cyber Security and System Development

Details of Finding ................................................................................................................1


Recommendations................................................................................................................7


Comments ............................................................................................................................8



Appendices

1.     Objective, Scope, and Methodology ............................................................................9


2.     Related Reports ..........................................................................................................11


3.     Management Comments.............................................................................................13

Management Controls over the Development and Implementation
of the Office of Energy Efficiency and Renewable Energy's
Performance and Accountability for Grants in Energy System

Cyber Security and 	   We found that the Performance and Accountability for Grants
System Development	    in Energy (PAGE) system did not satisfy various Federal and
                       Department of Energy (Department) cyber security and project
                       management requirements. Specifically, significant
                       weaknesses related to security planning and testing and access
                       controls were identified that, if not fully addressed, could result
                       in a higher than necessary cyber security risk. In addition,
                       program officials had not ensured that fundamental project
                       management practices required by the Office of Management
                       and Budget (OMB) for this type of development, such as
                       business process reengineering and development of cost and
                       schedule baselines, were followed when deciding to develop
                       and implement PAGE.

                                                System Security

                       Office of Energy Efficiency and Renewable Energy (EERE)
                       officials initiated operation of PAGE without ensuring that the
                       system met necessary cyber security requirements. The
                       National Institute of Standards and Technology (NIST)
                       requires that a risk management framework be applied to
                       Federal information systems prior to them being placed into
                       operation. Through this process, systems undergo testing to
                       ensure that minimum security controls are implemented
                       correctly, operating as intended, and producing the desired
                       outcome. Following testing, the program's Authorizing
                       Official is responsible for allowing operation of the system by
                       accepting any residual risks. In addition, the Under Secretary
                       of Energy Program Cyber Security Plan (Energy PCSP) – to
                       which PAGE is subject – requires that all systems complete
                       this process prior to processing live data or information.

                       In spite of these requirements, we found that PAGE began
                       operation in September 2009 even though the system
                       authorization process had not yet been completed. Required
                       security documentation such as a risk assessment, system
                       security plan, and contingency plan had not been developed;
                       security controls had not been tested; and PAGE had not been
                       approved to operate by the Authorizing Official. For instance,
                       the document detailing the controls that should have been
                       implemented was not finalized until January 2010. Because
                       the system's controls had not been fully documented, an
                       independent security assessment could not be performed to
                       confirm implementation. The system's implementation

________________________________________________________________
Page 1	                                                 Details of Finding
                      timeline indicated that these tasks were planned as part of the
                      next phase of implementation, which was scheduled for
                      completion in May 2010 – eight months after the system
                      initially became operational. Ensuring these tasks were
                      performed was critical because the system is a web-based
                      application with almost 2,500 users. Since it is connected to
                      the Internet, its compromise could cause significant damage to
                      the Department's networks.

                      Near the end of our audit, PAGE was given an interim
                      authority to operate even though the security assessment – a
                      major component of NIST's Risk Management Framework –
                      still had not been completed. NIST requires that, when
                      requesting authority to operate a system, a complete
                      authorization package – consisting of the system security plan,
                      the results of security control testing, and the Plan of Action
                      and Milestones (POA&M) for tracking corrective actions –
                      must be presented to the Authorizing Official. This
                      documentation provides information needed to make credible
                      risk-based decisions regarding whether to authorize operation
                      of the system. However, an independent security assessment
                      had not been completed and was not scheduled until May 2010.

                      In commenting on our draft report, management stated that this
                      testing started in late June 2010 and was expected to be
                      completed by the end of September 2010 – four months later
                      than initially anticipated and a year after the system became
                      operational. We also noted that the POA&M listed several
                      critical areas where the controls that were documented in the
                      system security plan had not been implemented. These
                      included controls in the areas of system access, configuration
                      management, and contingency planning and recovery. Our
                      review of the system security plan confirmed that 34 percent of
                      the controls required by NIST had not been implemented for
                      the PAGE system. Furthermore, documentation provided by
                      the program disclosed that cyber security had not been
                      incorporated into the system development process for PAGE.

                      To support our review of system security, we performed
                      vulnerability scanning and penetration testing on PAGE and
                      noted several additional weaknesses related to access controls
                      for the system. Specifically, we identified weaknesses with
                      password management and hardware configurations. We also
                      identified multiple vulnerabilities within the PAGE web
                      interface that could have allowed an unauthorized individual
                      access to the system or the ability to use the system as an

________________________________________________________________
Page 2                                                  Details of Finding
                      intermediary for other attacks. As noted in our report on
                      Management Controls over the Department's WinSAGA System
                      for Energy Grants Management Under the Recovery Act
                      (OAS-RA-10-05, March 2010), and our report on Management
                      of the Department's Publicly Accessible Websites (DOE/IG-
                      0789, March 2008), web-based applications are particularly
                      vulnerable to exploit. Had program officials completed
                      security testing of PAGE prior to its operation, they could have
                      identified and addressed many of the weaknesses we noted.
                      Following discussion of the results of our testing, EERE
                      management took action to correct most of the technical issues
                      identified.

                                           System Development

                      The development of PAGE was not planned to ensure that the
                      most cost-effective system was selected for implementation.
                      Specifically, required analyses were not always completed and
                      EERE officials did not fully consider existing systems and
                      commercial-off-the-shelf software. The OMB requires that
                      agencies initiate the acquisition of new information technology
                      (IT) assets only when no existing alternative can meet the need;
                      simplify or otherwise redesign work processes to reduce costs;
                      and reduce project risk by avoiding custom designed
                      components and ensuring involvement and support of users in
                      the design and testing of the asset. In addition, the Federal
                      Acquisition Regulation requires that agencies perform
                      acquisition planning and conduct market research for all
                      acquisitions to ensure that the most suitable approach to the
                      acquisition is utilized.

                      We found that when planning to replace the aging Windows
                      System Approach to Grants Administration (WinSAGA)
                      system, EERE officials did not adequately research and
                      evaluate potential alternatives, including the use of existing
                      Department systems or acquisition and modification of
                      commercial-off-the-shelf software prior to beginning
                      development activities. Specifically, a gap analysis, completed
                      in December 2008, recommended that EERE develop a web-
                      based application as soon as possible, noting that this
                      recommendation was the most cost-effective alternative.
                      While the development of PAGE began in March 2009,
                      program officials did not complete an alternatives analysis until
                      three months later. Even after this analysis had been
                      completed, it did not include a determination of whether other
                      Department elements had existing systems that would meet

________________________________________________________________
Page 3                                                  Details of Finding
                      EERE's need, and was based on cost data that was more than
                      two years old. In commenting on our draft report, management
                      noted that much of the critical portions of an alternatives
                      analysis were underway by February 2009. However, our
                      review of documentation provided to support this assertion
                      found that, while it identified the information needs for a new
                      system, it did not provide information regarding development
                      alternatives. Furthermore, contracting officials were unable to
                      provide documentation related to acquisition planning or
                      market research that may have been performed prior to
                      soliciting vendors to develop PAGE. As a result, the
                      Department could not ensure that the selected alternative met
                      its needs in the most effective, economical and timely manner.
                      The need for effective project management is further
                      highlighted because development and maintenance of PAGE
                      was mostly funded through the American Recovery and
                      Reinvestment Act of 2009 (Recovery Act), which stressed the
                      need for accountability of government programs and
                      operations.

                      We also determined that detailed cost and schedule baselines
                      designed to aid management with oversight of the PAGE
                      project were not developed. Without such information,
                      management was unable to adequately track the timing and
                      expenditure of funds for the system development effort. As
                      part of its quarterly reporting responsibilities to the
                      Department's Chief Information Officer, EERE disclosed, in
                      October 2009, that PAGE was on-time and within budget and
                      gave it a score of "green" on its IT Council Scorecard.
                      However, we found that the overall project completion date
                      had slipped three months. In addition, EERE officials were
                      unable to provide a detailed cost baseline for the development
                      of PAGE. Without this information, they would have been
                      unable to determine whether or not the project was within
                      budget.

Security Monitoring   These issues were due, in large part, to the accelerated
and Project           planning, development and deployment approach adopted by
Management            the Department. Because of a need to quickly deploy the
                      system, officials elected to proceed without completing all
                      required cyber security planning, assessment, and security
                      testing. The desire to quickly deploy the system also
                      contributed to the decision to not complete various OMB
                      required project management activities prior to moving
                      forward with development.



________________________________________________________________
Page 4                                                  Details of Finding
                                            Security Monitoring

                      Program officials had not taken an effective risk-based
                      approach to ensure that cyber security requirements necessary
                      for protecting the PAGE system and the information it
                      contained were in place prior to operation of the system. In
                      particular, officials stressed the need to place the system into
                      operation over ensuring that cyber security requirements were
                      met. In addition, EERE had not established an adequate cyber
                      security program management structure designed to help with
                      implementation of an effective cyber security posture.

                      Although the Energy PCSP required that the system owner
                      obtain the proper authorization based on risk prior to starting
                      system operations, program officials commented that the need
                      to quickly place the system into operation outweighed the need
                      for sufficient evaluation and implementation of security
                      controls. While we recognize the need for EERE to implement
                      the PAGE system in a prompt manner, incorporating security
                      controls and assessing their adequacy during development
                      would not have necessarily delayed the system deployment, but
                      would have helped to ensure a secure computing environment.
                      In addition, EERE had not ensured that an appropriate
                      management structure was in place over the cyber security
                      program to make risk-based decisions as part of system
                      implementation.

                      PAGE was placed into operation even though a formal
                      evaluation of security risks and vulnerabilities was not
                      prepared for the authorizing official – the individual
                      responsible for accepting the risk of a system's operation. In
                      addition, even though the Energy PCSP required that an
                      authorizing official with system oversight be appointed in
                      writing by the Under Secretary of Energy or the Assistant
                      Secretary for EERE and receive training specific to their role
                      and responsibilities, no one with the appropriate level of
                      authority was appointed to this position at the time the system
                      was placed into operation. This was of particular concern
                      regarding PAGE because, at the time it became operational,
                      minimum security controls had not been fully implemented on
                      the system and performance of those controls had not been
                      assessed.




________________________________________________________________
Page 5                                                  Details of Finding
                                         Project Management Practices

                         When planning for the development and implementation of
                         PAGE, EERE officials had not ensured that required system
                         development and project management practices for major IT
                         investments were followed. Due to time limitations, program
                         officials directed that the development of PAGE begin without
                         performing the necessary analyses. Specifically, the initial
                         recommendation of the gap analysis conducted when deciding
                         to replace WinSAGA was to review commercial-off-the-shelf,
                         government-off-the-shelf, and existing Department systems,
                         and then perform the required cost-benefit analysis that would
                         include developing a web-based application. However,
                         officials did not follow through with this recommendation
                         because they believed the process would take too long and
                         instead decided to immediately begin development of the web-
                         based application, PAGE. In addition, EERE officials
                         commented that they did not seek input from grant recipients –
                         the system's external users – related to the design of PAGE due
                         to the limited time before the system had to be operational.
                         While we realize that the program faced constraints which
                         reduced the amount of time available to develop the system, we
                         noted that obtaining user input at the beginning of a system
                         development effort such as PAGE significantly increases the
                         likelihood that the system will meet user needs. A proactive
                         approach such as this can also aid in the avoidance of re-work
                         costs due to a lack of functionality.

Risk to Systems and 
    Without improvements to EERE's cyber security and project
Sensitive Information
   management practices, PAGE may introduce higher than
                         necessary risks to the Department's information systems.
                         Future EERE development projects could also cost more than
                         necessary. In particular, the cyber security weaknesses
                         identified during our review could have resulted in
                         compromises to the Department's IT infrastructure had they
                         been exploited by an individual with nefarious intent. For
                         instance, our testing revealed that the ability existed to gain
                         unauthorized administrative access to the system. This
                         included the ability of authorized users to inappropriately
                         elevate their own access privileges. In addition, without
                         having adequately tested the system security controls for
                         PAGE, program officials were unable to effectively ensure that
                         the system and the network it resided on could be protected
                         when it became operational. The lack of a contingency plan
                         also increased the risk that the Department and other users of



________________________________________________________________
Page 6                                                  Details of Finding
                     the PAGE system could not effectively continue relevant
                     operations in the event of a significant system outage.

                     The project management issues we identified may result in the
                     Department spending more than necessary for a custom-built
                     system when other less expensive, viable alternatives may have
                     been available. This particular situation could have been
                     avoided had the appropriate levels of acquisition planning and
                     market research been conducted. For example, had a cost
                     estimate been developed and used during the solicitation
                     review process, EERE may have been able to make more
                     efficient use of Recovery Act funds. During a time of
                     increased attention to transparency of government spending, it
                     is important that the Department's programs perform the
                     required analyses before funds are expended to ensure that the
                     government is receiving the most benefit from its expenditure
                     of the taxpayers' money.

RECOMMENDATIONS      To help improve the effectiveness of cyber security and system
                     development efforts, we recommend that the Assistant
                     Secretary for Energy Efficiency and Renewable Energy ensure
                     that:

                        1.	 A risk-based approach is taken when developing and
                            implementing information systems, including review of
                            development and implementation efforts at the
                            appropriate management level;

                        2.	 Appropriate security protection measures over the
                            PAGE system are implemented and tested using a risk-
                            based approach in the most expeditious manner
                            possible; and,

                        3.	 Effective project management practices are
                            implemented as part of ongoing and future development
                            efforts for IT systems, to include evaluation of viable
                            alternatives, completion of detailed cost and
                            alternatives analyses, acquisition planning, and market
                            research prior to making funding decisions.

MANAGEMENT           EERE management generally concurred with the
REACTION             recommendations in our report. In addition, management
                     indicated that corrective actions were underway to address the
                     recommendations. Management also provided clarification
                     regarding its actions as they related to our recommendations.



________________________________________________________________
Page 7	                                   Recommendations and Comments
                     In particular, management commented that, while seeking to
                     mitigate risk, it was also necessary to accommodate
                     compressed timelines imposed by the Recovery Act and ensure
                     cost-effectiveness in conducting system security activities on
                     PAGE. Management stated that the approach utilized to
                     authorize the PAGE system for operation allowed EERE to
                     achieve a cost-balanced and risk-based approach by performing
                     all steps required by NIST after major phases of the system's
                     development. Management noted that this tailoring was
                     acceptable and in accordance with NIST Special Publication
                     (SP) 800-30, Risk Management Guide for Information
                     Technology Systems.

                     In addition, management recognized the need for effective
                     management practices as part of ongoing and future IT
                     development efforts. However, management noted that, in the
                     case of PAGE, a compressed deployment timeline was
                     necessary to meet the goals of the Recovery Act. Furthermore,
                     management disclosed that independent security control testing
                     on the PAGE system began in June 2010 and was expected to
                     be completed by the end September 2010. Management
                     indicated that the results of this testing will be used to define
                     the system's residual risk.

AUDITORS	            Management's comments are generally responsive to our
COMMENTS	            recommendations. Where appropriate, we made changes to the
                     body of the report to address management's comments. We
                     agree that cost and risk are significant factors that should be
                     considered when deciding to operate an information system.
                     We also agree that it was necessary to expedite development
                     and implementation of the PAGE system to aid in Recovery
                     Act activities. However, NIST requires that an assessment of
                     security controls be conducted and the resulting assessment
                     report be presented to the Authorizing Official for use in
                     making the decision to allow the system to operate. As noted
                     in our report, PAGE was permitted to operate even though
                     testing of controls is not expected to be completed until
                     September 2010 – limiting the usefulness of planned risk
                     assessments. Management's comments are included in
                     Appendix 3.




________________________________________________________________
Page 8	                                                       Comments
Appendix 1


OBJECTIVE              To determine whether the Performance and Accountability for
                       Grants in Energy (PAGE) system was developed and
                       implemented in accordance with Department of Energy
                       (Department) and Federal cyber security and project
                       management requirements.

SCOPE                  The audit was performed between November 2009 and May
                       2010 at Department Headquarters in Washington, DC.

METHODOLOGY            To accomplish our objective, we:

                                Reviewed applicable laws and Department directives,
                                including those pertaining to information system
                                security and project acquisition planning;

                                Reviewed applicable standards and guidance issued
                                by the Office of Management and Budget related to
                                system development;

                                Reviewed prior reports by the Office of Inspector
                                General and the Government Accountability Office;

                                Obtained documentation from and held discussions
                                with officials from the Department's Office of Energy
                                Efficiency and Renewable Energy (EERE) and
                                contractor personnel relating to system security and
                                controls and system development efforts; and,

                                Analyzed system documentation to determine
                                whether the risks of operating PAGE had been
                                identified and addressed before the system was
                                allowed to operate.

                       We conducted this performance audit in accordance with
                       generally accepted Government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe that the evidence obtained provides a reasonable
                       basis for our finding and conclusions based on our audit
                       objectives. Accordingly, we assessed significant internal
                       controls and EERE's implementation of the Government
                       Performance and Results Act of 1993 and determined that it
                       had established performance measures for management and
                       operation of its grant management systems. Because our


________________________________________________________________
Page 9                                    Objective, Scope, and Methodology
Appendix 1 (continued)


                       review was limited, it would not have necessarily disclosed all
                       internal control deficiencies that may have existed at the time
                       of our evaluation. We did rely on computer-processed data, to
                       some extent, to satisfy our objective related to system security.
                       In this case, we verified our findings using manual techniques.

                       An exit conference was held with Department officials on
                       July 20, 2010.




________________________________________________________________
Page 10                                   Objective, Scope, and Methodology
Appendix 2


                                 RELATED REPORTS


  Management Controls over the Department's WinSAGA System for Energy Grants
  Management Under the Recovery Act (OAS-RA-10-05, March 2010). The audit found
  that the Windows System Approach to Grants Administration (WinSAGA), as currently
  configured, appeared to be capable of processing the additional formula grant
  transactions resulting from the American Recovery and Reinvestment Act of 2009
  (Recovery Act). However, the audit did identify certain security concerns with the
  system that could increase the risk of compromise of grant data. Specifically, controls
  over system access had not always been implemented as required; appropriate system
  backup and recovery procedures had not been implemented; and, security planning
  documentation and control testing were incomplete and contained several inconsistencies.
  The issues we identified were due, at least in part, to inadequate communication and
  implementation of required cyber security policies by Headquarters and state officials.
  While no evidence of compromise was found, without improvement WinSAGA, and the
  information it maintains, could be exposed to a higher than necessary level of risk of
  compromise, loss, modification, and non-availability.

  Department of Energy's Efforts to Meet Accountability and Performance Reporting
  Objectives of the American Recovery and Reinvestment Act (OAS-RA-09-04, September
  2009). The Department of Energy's (Department) efforts to develop, refine, and apply
  the control structure needed to ensure accurate, timely, and reliable reporting to be both
  proactive and positive. The audit did, however, identify certain issues relating to
  Recovery Act performance management, accounting and reporting accuracy, and
  timeliness that should be addressed and resolved. In particular, program officials had not
  yet determined whether existing information systems will be able to process anticipated
  transaction increases associated with the Recovery Act. There was a lack of coordination
  between Headquarters organizations related to aspects of Recovery Act reporting. The
  need to report accurate and complete information to the public and the Office of
  Management and Budget (OMB) is a Recovery Act imperative. In addition, we are
  concerned that the Department's information systems supporting Recovery Act activities
  may be unable to handle significant increases in workload or provide appropriate
  mechanisms to ensure that funds are accurately tracked and reported.

  Special Report on The American Recovery and Reinvestment Act at the Department of
  Energy (OAS-RA-09-01, March 2009). The report identified specific risks that were
  discovered during past reviews and investigations in areas such as fund accounting and
  reporting, grants and cooperative agreements, contract management, and loan guarantees.
  While the use of grants and cooperative agreements can be an effective way to fund
  various initiatives, these types of financial assistance tools also carry a number of
  demonstrated risks. Our prior reviews have also established that program officials did
  not always take action to mitigate performance-related risks through effective monitoring
  of grants and cooperative agreements. To prepare for the vast increase in projects funded
  through grants and cooperative agreements, and to address the risks we have previously
  identified, the Department should take steps to: develop aggressive safeguards to ensure



________________________________________________________________
Page 11                                                  Related Reports
Appendix 2 (continued)


  that financial and business risks are adequately assessed and addressed prior to initial
  award; monitor performance throughout the life-cycle of the grant or cooperative
  agreement; and adjust project management techniques to ensure the transparency of
  project data and ensure that specific OMB and Recovery Act monitoring and reporting
  requirements are met. Controls such as these are essential to ensuring that the massive
  surge in funds to be distributed through grants and cooperative agreements is adequately
  controlled and monitored. Based on current plans, these funding mechanisms are to form
  a significant part of Recovery Act outlays and are therefore likely to be critical to
  achieving desired economic stimulus.

  Management of the Department's Publicly Accessible Websites (DOE/IG-0789, March
  2008). The audit identified several opportunities to improve the security and
  management of the Department's publicly accessible websites. Specifically, we
  identified numerous significant cyber security incidents, which, in our judgment, could
  have been prevented had proper security controls been in place; content on publicly
  accessible web servers was not always controlled and reviewed periodically; and most of
  the organizations reviewed also had not incorporated contingency/emergency planning
  features, provided accessibility for individuals with disabilities, and/or disabled unneeded
  computer services for their publicly accessible websites. We concluded that the risk that
  the Department's publicly accessible websites and the data they contained could be
  compromised was higher than acceptable. A lack of guidance from Headquarters and
  deficiencies in site-level management and control contributed to an unnecessarily risky
  security posture and publicly accessible websites that did not meet Federal accessibility
  requirements or contingency planning and emergency response best practices.




________________________________________________________________
Page 12                                                  Related Reports
Appendix 3 




                                                               Department of Energy
                                                                      Washington, DC 20585

                                                                            JUt 06 2019
      MEMORANDUM FOR:                                  RICKEY R. HASS
                                                       DEPUTY INSPECTOR GENERAL FOR
                                                       AUDIT SERVICES
                                                       OFFICE OF INSPECTOR GENERAL

      FROM:                                            KATHLEEN B.                 HOft?\~I1~-_
                                                       DEPUTY ASSI1('~~
                                                       FOR ENERG~FICIENCY
                                                       OFFICE OF TECHNOLOGY DEVELOPMENT
                                                       ENERGY EFFICIENCY AND RENEWABLE ENERGY

      SUBJECT:                                         Response to the Office of Inspector General Draft Report on the
                                                       Audit of "Management Controls over the Development and
                                                       Implementation of the Office of Energy Efficiency and Renewable
                                                       Energy's Performance and Accountability for Grants in Energy
                                                       System"

      The U.S. Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
      appreciates the opportunity to review and comment on the results of the Audit performed on the
      Management Controls over the Department's Performance and Accountability for Grants in
      Energy (PAGE) system for Energy Grants Management under the American Recovery and
      Reinvestment Act (ARRA or Recovery Act).

      Recommendation 1: A risk-based approach is taken when developing and implementing
      information systems, including review of development and implementation efforts at the
      appropriate management level.

      Response: EERE concurs in part with the recommendation.

      Management Response: EERE recognizes the importance of a risk-based approach when
      developing and implementing information systems. While seeking to mitigate risk, EERE also
      found it necessary to accommodate compressed timelines imposed by the Recovery Act, and
      ensure cost-effectiveness in conducting system security activities on PAGE.

      EERE explored multiple options for conducting certification and accreditation activities. The
      approach that was applied was deemed appropriate for a system that was undergoing phased
      development and a relatively high pace of change. PAGE development was divided into four
      phases and EERE believes it was able to achieve a cost-balanced and risk-based approach by
      performing all the required steps of a certification and accreditation after major phases of system
      development (specifically, after Phase One and Phase Three).l An initial risk assessment was


      1 EERE followed National Institutes of Standards and Technology (NIST) Guidance as out Ii lied in Special Publication 800-30, Risk Management Guide for
      Information Technology Systems, \vhich states that "Organizations may choose to expand or abbreviate the comprehensive process and steps suggested in this guide
      and tailor them to their environment in managing rT-related mission risks"




                                                                ®        Printed with soy ink on recycled paper




________________________________________________________________
Page 13                                           Management Comments
Appendix 3 (continued)





      conducted during early development, and the weaknesses were identified and documented in the
      initial Plan of Action and Milestones (POA&M) following Phase One. Prior to beginning Phase
      Two, EERE developed initial versions of the System Security Categorization, System Security
      Plan, Security Assessment Report, and Privacy Impact Assessment.

      Action Plan: Following Phase Three of development, an independent security test and
      evaluation will be conducted, during which remaining weaknesses will be identified, prioritized,
      and corrected as documented in the POA&M.

      Estimated Date of Completion: September 30, 2010

      Recommendation 2: Appropriate security protection measures over the PAGE system are
      implemented and tested using a risk-based approach in the most expeditious manner possible.

      Response: EERE concurs with the recommendation as stated.

      Management Response: PAGE is undergoing a full Security Test and Evaluation (ST &E)
      Review, which began the week of June 21, 2010. The ST&E will determine the system's
      compliance with defined security requirements by testing the correctness and effectiveness of the
      security controls related to:
          • Hardware, software, operating system, applications, and databases
          • Increased levels of concern for confidentiality, integrity, and availability, and
          • Internal or external exposure, and risk-based decisions
      The ST &E documents effective security controls and identifies security controls that are either
      ineffective or insufficiently implemented. The latter are documented in a Risk Assessment
      intended to define the residual risk prior to mitigation, and after appropriate risk mitigation has
      occurred.
      Estimated Completion Date: September 30, 2010

      Recommendation 3: Effective project management practices are implemented as part of
      ongoing and future development efforts for information technology systems, to include
      evaluation of viable alternatives, completion of detailed cost and alternatives analyses,
      acquisition planning, and market research prior to making funding decisions.

      Response: EERE concurs in part with the recommendation.

      Management Response: EERE recognizes the need for effective management practices as part
      of ongoing and future information technology development efforts. EERE will ensure
      compliance with OMB Project Management Practices, and alternatives analysis for IT
      investments will be completed in advance of project implementation.

      With regard to the PAGE system, in December 2008, EERE completed an interim report that
      contained several alternatives which were considered for a web-based solution. While the final
      report was not formally issued until June 2009, the critical components identified in February
      2009 provided EERE with the necessary information to initiate the development efforts required
      to meet the timeframes established by Recovery Act.




________________________________________________________________
Page 14                                           Management Comments
Appendix 3 (continued)





        Action Plan: EERE has developed an action plan to conduct an alternatives analysis related to
        future PAGE development efforts, including review of requirements, detailed costs, and market
        research. This analysis is being conducted in conjunction with the Office ofthe Chief
        Information Officer (OCIO) as part ofEERE's ongoing implementation of effective project
        management practices.

        Estimated Completion Date: September 30, 2010

        Attachments




________________________________________________________________
Page 15                                           Management Comments
                                                          IG Report No. OAS-RA-10-14

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report?

2.	 What additional information related to findings and recommendations could have
    been included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's
    overall message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the
    issues discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should
    we have any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
